U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ismael Lechuga v. United States, No. 20-745
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 24,
2020, and placed on the docket on December 1, 2020. The government’s response is now due,
after one extension, on March 1, 2021. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including April 2, 2021, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0745
LECHUGA, ISMAEL
USA

JOSH BARRETT SCHAFFER
SCHAFFER LAW OFFICES
1021 MAIN STREET
SUITE 1440
HOUSTON, TX 77002
713-951-9555
JOSH@JOSHSCHAFFERLAW.COM

